No. ______
In the

Supreme Court of the United States
__________________
WILLIAM BOATENG,
v.

Petitioner,

BP, P.L.C.; BP EXPLORATION & PRODUCTION,
INCORPORATED; BP AMERICA, INCORPORATED;
BP PRODUCTS NORTH AMERICA, INCORPORATED;
BP INTERNATIONAL LIMITED,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________

PETITION FOR A WRIT OF CERTIORARI
__________________
MICHAEL CONFUSIONE
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Federal Rule of Civil Procedure 12(d) provides, “If,
on a motion under Rule 12(b)(6) or 12(c), matters
outside the pleadings are presented to and not excluded
by the court, the motion must be treated as one for
summary judgment under Rule 56. All parties must be
given a reasonable opportunity to present all the
material that is pertinent to the motion.”
1. Can a Court of Appeals treat a Rule 12(b)(6)
motion to dismiss as a converted motion for summary
judgment under Rule 12(d) when the district court
itself decided the motion as one to dismiss under Rule
12(b)(6) and did not treat the motion as one converted
to summary judgment pursuant to Rule 12(d)?
2. Does the non-movant’s presentation to the
district court of materials beyond the complaint alone
satisfy the “reasonable opportunity” of Rule 12(d), or is
something more required?

ii
PARTIES TO THE PROCEEDINGS
Petitioner William Boateng was the plaintiff in the
United States District Court and the appellant in the
United States Court of Appeals. Respondents (the BP
entities) were the defendants in the District Court and
the appellees in the Court of Appeals.
STATEMENT OF RELATED PROCEEDINGS
• Boateng v. BP, P.L.C., et al., No. 18-31032 (5th
Cir.) (Opinion issued July 3, 2019; Petition for
Rehearing denied August 2, 2019)
• Boateng v. BP, P.L.C., et al., No. 11-1383 (E.D.
La.) (Judgment issued August 29, 2019; Opinion
issued August 15, 2018)
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULE PROVISIONS INVOLVED. . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 6
I. Can a Court of Appeals treat a Rule 12(b)(6)
motion to dismiss as a converted motion for
summary judgment under Rule 12(d) when the
district court itself decided the motion as one to
dismiss under Rule 12(b)(6) and did not treat the
motion as one converted to summary judgment
pursuant to Rule 12(d)? . . . . . . . . . . . . . . . . . . . . 6
II. Does the non-movant’s presentation to the
district court of materials beyond the complaint
alone satisfy the “reasonable opportunity” of
Rule 12(d), or is something more required?. . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(July 3, 2019). . . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in the United States
District Court for the Eastern District
of Louisiana
(August 29, 2018) . . . . . . . . . . . . . App. 9
Appendix C Order & Reasons in the United States
District Court for the Eastern District
of Louisiana
(August 15, 2018) . . . . . . . . . . . . App. 11
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(August 2, 2019) . . . . . . . . . . . . . App. 20
Appendix E Complaint for Damages in the United
States District Court for the Eastern
District of Louisiana
(June 10, 2011) . . . . . . . . . . . . . . App. 22

v
TABLE OF AUTHORITIES
CASES
Alexander v. Oklahoma,
382 F.3d 1206 (10th Cir. 2004). . . . . . . . . 8, 12, 13
Arnold v. Air Midwest, Inc.,
100 F.3d 857 (10th Cir. 1996). . . . . . . . . . . . . . . . 9
Ashcroft v. Iqbal,
556 U.S. 662, 129 S. Ct. 1937,
173 L. Ed. 2d 868 (2009) . . . . . . . . . . . . . . . . . . . . 6
Beckles v. United States,
137 S. Ct. 886, 197 L. Ed. 2d 145 (2017) . . . . . . . 9
Bell Atl. Corp. v. Twombly,
550 U.S. 544, 127 S. Ct. 1955,
167 L. Ed. 2d 929 (2007) . . . . . . . . . . . . . . . . . . . . 6
Bos. Celtics Ltd. P’ship v. Shaw,
908 F.2d 1041 (1st Cir. 1990) . . . . . . . . . . . . . . . 13
Brobst v. Columbus Servs. Int’l,
761 F.2d 148 (3d Cir. 1985) . . . . . . . . . . . . . . . . 15
Castle v. Cohen,
840 F.2d 173 (3d Cir. 1988) . . . . . . . . . . . . . . . . . 7
Clark v. Tarrant Cty., Texas,
798 F.2d 736 (5th Cir. 1986). . . . . . . . . . . . . . . . 14
Donaldson v. Clark,
819 F.2d 1551 (11th Cir. 1987). . . . . . . . . . . . . . 12
First Fin. Ins. Co. v. Allstate Interior Demolition
Corp., 193 F.3d 109 (2d Cir. 1999) . . . . . . . . . . . 17

vi
Griffith v. Wainwright,
772 F.2d 822 (11th Cir. 1985). . . . . . . . . . . . 11, 15
Hall v. Bellmon,
935 F.2d 1106 (10th Cir. 1991). . . . . . . . . . . . . . 12
Hirrill v. Merriweather,
629 F.2d 490 (8th Cir. 1980). . . . . . . . . . . . . . 8, 14
Hoopes v. Equifax, Inc.,
611 F.2d 134 (6th Cir. 1979). . . . . . . . . . . . . . . . 15
Johnson v. Pennsylvania Wire & Rope Co.,
867 F.2d 608 (4th Cir. 1989). . . . . . . . . . . . . . . . 14
Kaestel v. Lockhart,
746 F.2d 1323 (8th Cir. 1984). . . . . . . . . . . . . . . 14
Klocke v. Watson,
936 F.3d 240 (5th Cir. 2019). . . . . . . . . . . . . . . . 17
Lazzara v. Howard A. Esser, Inc.,
802 F.2d 260 (7th Cir. 1986). . . . . . . . . . . . . . . . 14
Milwaukee Typographical Union No. 23 v.
Newspapers, Inc., 639 F.2d 386 (7th Cir.),
cert. denied, 454 U.S. 838, 102 S. Ct. 144,
70 L.Ed.2d 119 (1981) . . . . . . . . . . . . . . . . . . . . . 14
Moody v. Town of Weymouth,
805 F.2d 30 (1st Cir. 1986) . . . . . . . . . . . . . . . . . 11
Rose v. Bartle,
871 F.2d 331 (3d Cir. 1989) . . . . . . . . . . . . . . . . 12
Sahu v. Union Carbide Corp.,
418 F. Supp. 2d 407 (S.D.N.Y. 2005) . . . . . . . . . 15

vii
Sahu v. Union Carbide Corp.,
548 F.3d 59 (2d Cir. 2008) . . . . . . . . . . . 15, 16, 17
Torres v. First State Bank of Sierra Cty.,
550 F.2d 1255 (10th Cir. 1977). . . . . . . . . . . . . . 13
STATUTES
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 12(d) . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 56(b)3 . . . . . . . . . . . . . . . . . . . . . . . . . 8
OTHER AUTHORITY
6 Moore’s Federal Practice. . . . . . . . . . . . . . . . . 11, 12

1
PETITION FOR A WRIT OF CERTIORARI
William Boateng petitions this Court for a writ of
certiorari to review the Orders and Decisions of the
Court of Appeals and District Court below.
OPINIONS BELOW
The July 3, 2019 Opinion of the United States
Court of Appeals for the Fifth Circuit is unpublished
and appears at Appendix 1. The August 29, 2018
Order & Reasons of the United States District Court
for the Eastern District of Louisiana is unpublished
and appears at Appendix 11.
JURISDICTION
The Opinion of the United States Court of Appeals
was entered on July 3, 2019. App. 1. A timely petition
for rehearing was filed and was denied by the Court of
Appeals on August 2, 2019. App. 20. This Court’s
jurisdiction is invoked under 28 U.S.C. § 1254.
RULE PROVISIONS INVOLVED
Federal Rule of Civil Procedure 12(b): “How to
Present Defenses. Every defense to a claim for relief in
any pleading must be asserted in the responsive
pleading if one is required. But a party may assert the
following defenses by motion: … (6) failure to state a
claim upon which relief can be granted…”
Federal Rule of Civil Procedure 12(d): “Result of
Presenting Matters Outside the Pleadings. If, on a
motion under Rule 12(b)(6) or 12(c), matters outside
the pleadings are presented to and not excluded by the
court, the motion must be treated as one for summary

2
judgment under Rule 56. All parties must be given a
reasonable opportunity to present all the material that
is pertinent to the motion.”
STATEMENT OF THE CASE
In April 2010, defendant BP suffered a catastrophic
oil spill in the Gulf of Mexico at the Macondo Well after
the oil rig Deepwater Horizon sunk from an explosion
and fire. The leak spilled at least 5,000 barrels of
petroleum into the Gulf of Mexico daily, endangering
the coasts of several Gulf states and threatening
generations of marine and ocean life.
Stopping the spill proved problematic. BP failed at
several attempts to stop it and, in desperation, reached
out to the public for ideas.
As Plaintiff detailed in his Complaint filed in the
District Court, Plaintiff responded to BP’s request by
presenting to BP’s engineers a three-page PowerPoint
presentation, detailing a six-step procedure illustrating
that removing the bolts on the upper flange of the
blowout preventor (BOP) that connected to the cut
pipe, and placing a new valve with sealing capability on
the BOP, would seal the leak and prevent future leaks,
which was unlike BP’s previously-attempted solutions
(such as the LMRP cap) that caused half of the oil to
continue leaking into the sea.
Plaintiff sent his proposal illustrating his “flange on
flange” method to BP on June 10, 11, and 25, 2010.
BP acknowledged receiving Plaintiff’s proposal in
June 12 and July 2, 2010 email replies, and in a
September 2, 2010 reply letter to plaintiff. But BP

3
refused to compensate plaintiff for the detailed
proposal he provided. So plaintiff sued BP in the
district court, asserting breach of contract and
“misappropriation” of his proposal to stop the
problematic leak, and alleging that his proposal, which
was novel to BP, led to BP’s use of its “capping stack
and transitional spool” on July 10, 2010 that finally
succeeded in stopping the catastrophic spill.
The Rulings Below
BP did not file an answer to plaintiff’s Complaint,
nor was any discovery conducted. Instead, BP filed a
Motion to Dismiss for Failure to State a Claim under
Fed. R. Civ. P. 12(b)(6). The district court granted the
motion without oral argument, ruling that plaintiff’s
Complaint could not make out any plausible claim.
App. 12. With regard to breach of contract, the court
said that “the complaint fails to plausibly allege any
facts from which it can be reasonably inferred that BP
agreed it would pay Boateng for such use.” App. 14.
With regard to plaintiff’s “misappropriation” claim, the
court agreed with BP that the legal theory failed to
state a claim under Louisiana state law. App. 15. The
court rejected any claim for unjust enrichment as well:
Boateng’s complaint provides only vague
descriptions of what he submitted to BP. In his
opposition brief, however, Boateng states that
his plan “called for the removal of the bolts so
the cap-head could be removed and replaced
with a valve. That valve then could be either
shut off to stop the leak or connected to a new
pipe to pump the oil to the surface.” (Opp’n at 5,
Rec. Doc. 18). Attached to Boateng’s opposition

4
are images depicting the proposal he allegedly
submitted to BP, as well as images of the
capping stack actually used by BP to stop the
discharge. (Rec. Docs. 18-2, 18-4). Since this
additional material is presented by Boateng, the
Court will treat it as if it was included in the
complaint for purposes of the instant motion.
The Court finds that Boateng’s complaint,
including the additional descriptions and images
included in his opposition, fails to establish that
he conferred an actual benefit upon BP.
Boateng’s proposal was to unscrew the bolts of a
flange and place a valve on top of the blowout
preventer. The capping stack and transition
spool actually used by BP were far more
complex. Boateng’s own exhibit depicting images
of BP’s device next to Boateng’s proposed valve
reveal that Boateng’s proposal was a far cry
from what was actually used. [App. 16-17]
The Court of Appeals affirmed the dismissal of
plaintiff’s lawsuit but not based on the motion to
dismiss analysis the district court conducted. Rather,
the Court of Appeals said that summary judgment was
proper. “Although the district court seemed to dismiss
Boateng’s claims under Rule 12(b)(6), the district court
implicitly granted a summary judgment motion by
considering matters beyond the pleadings,” the Court
of Appeals said, stating that plaintiff opposed BP’s
motion to dismiss in the district court not only by citing
allegations of his Complaint but by submitting to the
district court evidence beyond his pleading (the “images
depicting the proposal he allegedly submitted to BP, as

5
well as images of the capping stack actually used by BP
to stop the discharge” about which the District Court
said, “Since this additional material is presented by
Boateng, the Court will treat it as if it was included in
the complaint for purposes of the instant motion”).
App. 2-4. The Court of Appeals then proceeded to
apply a summary judgment standard to assess the
evidentiary sufficiency of plaintiff’s claims:
Boateng’s critical evidence cannot reasonably
support an unjust enrichment claim because the
evidence fails to support a finding that BP was
enriched. Boateng’s critical evidence is a threepage PowerPoint that he sent to BP. It contains
crudely annotated Clipart-esque pictures and
extremely brief descriptions of his plan to cap
the oil spill. His plan for stopping the leak
“called for the removal of the bolts so the caphead could be removed and replaced with a
valve. That valve then could be either shut off to
stop the leak or connected to a new pipe to pump
the oil to the surface.” Boateng v. BPI, No. 111383, slip op. at *3 (E.D. La. Aug. 15, 2018). Yet,
Boateng also submitted BP’s technical briefing
discussing the actual capping process. The
process described by BP is far more complex,
nuanced, and specific, and only has—at
most—surface-level similarities to Boateng’s
plan. It would be unreasonable for a juror to
believe that Boateng’s superficial input
conferred any benefit to BP, whose highly-skilled
engineers were struggling to cap a complex oil
spill thousands of feet underwater. We conclude
that Boateng’s critical evidence in this case

6
cannot support an unjust enrichment claim and
summary judgment in favor of BP is
appropriate. [App. 7]
The Court of Appeals concluded, “[a]lthough BP
initially moved for dismissal under 12(b)(6), the district
court implicitly converted BP’s dismissal motion into
one seeking summary judgment by granting Boateng’s
request to consider matters outside the pleadings.
Summary judgment in favor of BP is appropriate here
because Boateng’s evidence cannot support his claim
that he conferred a benefit upon BP. Additionally,
because Boateng’s claim is meritless, any error in
denying him leave to amend was harmless.
Accordingly, we AFFIRM the district court’s grant of
summary judgment and DENY Boateng’s motion for
leave to amend.” App. 8.
REASONS FOR GRANTING THE PETITION
I. Can a Court of Appeals treat a Rule 12(b)(6)
motion to dismiss as a converted motion for
summary judgment under Rule 12(d) when the
district court itself decided the motion as one
to dismiss under Rule 12(b)(6) and did not
treat the motion as one converted to summary
judgment pursuant to Rule 12(d)?
The BP defendants filed a motion to dismiss under
Rule 12(b)(6). The district court treated BP’s motion as
one to dismiss, ruling that plaintiff’s Complaint failed
the “facial plausibility” standard of Ashcroft v. Iqbal,
556 U.S. 662, 678–79, 129 S. Ct. 1937, 1949–50, 173
L. Ed. 2d 868 (2009) and Bell Atl. Corp. v. Twombly,
550 U.S. 544, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007).

7
The district court did not mention anything about
assessing the sufficiency of plaintiff’s evidence per a
Rule 12(d) conversion/Rule 56 summary judgment
procedure. The district court assessed only the
sufficiency of the pleading. Yet on appeal, the Court of
Appeals said that the district court “implicitly granted
a summary judgment motion by considering matters
beyond the pleadings,” then ruled – on appeal,
“Summary judgment in favor of BP is appropriate here
because Boateng’s evidence cannot support his claim
that he conferred a benefit upon BP.” App. 7.
The Court should grant this Petition to clarify that
this was improper under the Federal Rules of Civil
Procedure and the core notice requirement of the
underlying Due Process Clause. Rule 12(d) provides
that if “matters outside the pleadings are presented to
and not excluded by the court” then the motion to
dismiss should be treated as one for summary
judgment. The “court” to which the Rule refers is the
district court, not a court of appeals.
When the district court did not consider the motion
to dismiss as one converted to summary judgment, the
parties cannot be considered to have received the
“reasonable opportunity to present all the material that
is pertinent to the motion” that Rule 12(d) mandates.
This notice is critical. See, e.g., Castle v. Cohen, 840
F.2d 173, 179–80 (3d Cir. 1988) (vacating summary
judgment when the district court converted a Rule
12(b)(6) motion without notice to the parties).
The Court should clarify Rule 12(d)’s operation for
lower courts.

8
In addition to the Fifth Circuit in this case, two
other circuit courts have followed similar improper
procedures. In Hirrill v. Merriweather, 629 F.2d 490,
495 (8th Cir. 1980), the district court considered and
granted a motion to dismiss. The Eight Circuit Court
of Appeals found one claim sufficient to survive the
Rule 12(b)(6) analysis but ruled the claim would be
dismissed on summary judgment for failure of
evidence: “we would ordinarily remand the case for
further consideration as to Count II … From our
consideration of the record as a whole, however, we are
satisfied that the pension claim set out in Count II is
wholly without merit, and that further proceedings in
the district court would be a waste of time and effort.
For the sake of clarity, we will say that we treat the
case as to Count II as though the defendants had filed
a motion for summary judgment under Fed. R. Civ. P.
56(b)3 and we will apply Rule 56 standards.” Like the
Court of Appeals’ ruling in Mr. Boateng’s case, the
Court of Appeals’ application of Rule 12(d) to effectively
convert a motion to dismiss into one for summary
judgment in the appeals court misapplies Rule 12(d)
and violates the core notice requirements of the Rule
and the Due Process Clause.
The Tenth Circuit also followed this improper
procedure in Alexander v. Oklahoma, 382 F.3d 1206,
1213–15 (10th Cir. 2004). Again, the district court
assessed the plaintiffs’ claims under Rule 12(b)(6). But
the Court of Appeals said that “because the court
considered materials outside the complaint in making
its rulings, we must apply a summary judgment
standard of review[.]” The Court of Appeals said that
a “de facto conversion occurred because (1) both parties

9
presented material to the court which went beyond the
four corners of the complaint and (2) the court
referenced at least some of those materials in its
order.” The Court of Appeals rejected the plaintiffs’
contention “that although the parties provided
additional materials, the court did not rely on them.
They maintain that this lack of judicial reliance, and
the fact that the parties mentioned outside materials
only in passing, prevents us from altering the court’s
analysis under Rule 12(b)(6).” The Court of Appeals
said that it was sufficient – notice-wise – that the
district court “relied on” material beyond the pleadings
“in rendering its decision.” “While ‘[t]he court cannot
convert a motion to dismiss to a motion for summary
judgment without notice, unless the opposing party has
responded ... by filing his own affidavits[,]’ … we find
such a conversion permissible here because Plaintiffs
were both on notice of the possibility of conversion and
provided their own affidavit to the District Court…”
(citing Arnold v. Air Midwest, Inc., 100 F.3d 857, 859
n.2 (10th Cir. 1996) (“Because [the non-movant]
submitted material beyond the pleadings in opposition
to defendants’ motion, he is scarcely in a position to
claim unfair surprise or inequity”)).
We submit that such a procedure by a court of
appeals contravenes the notice required by Rule 12(d)
and by Rule 56 (which Rule 12(d) says governs upon
conversion), and violates the core notice principles of
the Due Process Clause. Beckles v. United States, 137
S. Ct. 886, 898, 197 L. Ed. 2d 145 (2017). Even Mr.
Boateng’s appellate counsel did not address whether
conversion was proper because the district court did
not state that such a conversion had occurred. The

10
Court of Appeals simply treated the case as one
converted to summary judgment when it rendered its
appeal decision. App. 3-7. This Court should grant
this Petition to clarify that Rule 12(d) does not permit
a court of appeals to consider a case as having been
converted from a motion to dismiss to a motion for
summary judgment where the district court did not
consider such a conversion to have occurred and where
the district court assessed the defendant’s motion only
as a motion to dismiss under the Rule 12(b)(6)
standard.
II. Does the non-movant’s presentation to the
district court of materials beyond the
complaint alone satisfy the “reasonable
opportunity” of Rule 12(d), or is something
more required?
The Court of Appeals said that because plaintiff
opposed defendant’s motion to dismiss in the district
court not only by citing the allegations of his Complaint
but by submitting evidence beyond the pleading, this
constituted an “implicit” Rule 12(d) “conversion” to
summary judgment. But as stressed above, the district
court itself did not treat defendants’ motion as one for
summary judgment, let alone provide notice to either
party that plaintiff’s Complaint was being assessed not
just for the viability of the pleading but for the
sufficiency of the evidence supporting it. There was no
notice to plaintiff that he was required to come forth
with such sufficient evidence showing that a reasonable
jury could find in his favor at a trial. The district court
did not even hold oral argument on the motion to
dismiss.

11
The Court should clarify the “reasonable
opportunity” that Rule 12(d) mandates. Is notice from
the district court to the parties that the motion to
dismiss will be converted to one for summary judgment
required? Does something less suffice? We submit
that Rule 12(d)’s “reasonable opportunity” at least
requires more than the non-movant’s mere
presentation of evidence beyond the pleadings –
something in the record confirming that the nonmovant (in particular) was aware that the district court
was assessing not just the sufficiency of the pleading
but the sufficiency of the evidence supporting the
claims, and that this was the non-movant’s burden to
show in order to avoid dismissal of his case. None of
this occurred in Mr. Boateng’s case below.
Clarification is needed because circuit courts are
split on the issue of what satisfies Rule 12(d), with
several decisions causing inconsistent results. As the
First Circuit has recognized, “some circuits require that
the parties be expressly notified of the district court’s
intention to convert a Rule 12(b)(6) motion into a
motion for summary judgment and strictly enforce this
notice requirement” (citing Moody v. Town of
Weymouth, 805 F.2d 30, 31 (1st Cir. 1986)).
The Eleventh Circuit has noted that “although not
expressly required by Rule 12, in total fairness to the
parties, the better practice is for the trial judge to
notify the parties that a Rule 12(b)(6) ... motion is to be
treated as a motion for summary judgment whenever
the trial judge considers matters outside the
pleadings.” Griffith v. Wainwright, 772 F.2d 822, 825
(11th Cir. 1985) (citing 6 Moore’s Federal Practice

12
¶ 56.14 [1], pp. 56–353 to 56–354 n. 14). Older cases
within the circuit have noted the prior ten day notice
requirement and enforced such notice for converted
motions: “It is clearly the law in this circuit that
whenever a district judge converts a 12(b)(6) motion to
dismiss into one for summary judgment by considering
matters outside the pleadings the judge must give all
parties ten-days notice that he is so converting the
motion.” Donaldson v. Clark, 819 F.2d 1551, 1555
(11th Cir. 1987).
The Third Circuit has reasoned similarly: “We have
previously held that when no hearing is conducted, the
court’s order converting Rule 12(b)(6) and Rule 12(c)
motions into summary judgment motions must be
unambiguous.” Rose v. Bartle, 871 F.2d 331, 341 (3d
Cir. 1989). The Third Circuit stressed that “it would
be desirable in the interest of clarity for an order to
notify expressly the parties that the court was
converting a motion to dismiss into one of ‘summary
judgment’ or that the ruling would be pursuant to ‘Rule
56…’” Rose, 871 F.2d at 342.
As noted above, the Tenth Circuit Court of Appeals
followed the improper conversion procedure in
Alexander v. Oklahoma, 382 F.3d 1206, 1213–15 (10th
Cir. 2004), yet other Tenth Circuit cases have stressed,
“[a] motion to dismiss pursuant to Rule 12(b)(6) is
treated as a motion for summary judgment when
premised on materials outside the pleadings, and the
opposing party is afforded the same notice and
opportunity to respond as provided in Rule 56.” Hall v.
Bellmon, 935 F.2d 1106, 1110–11 (10th Cir. 1991).
“The provisions of Rule 56(c) for notice to the opposing

13
party and an opportunity for him to serve opposing
affidavits are mandatory. Noncompliance therewith
deprives the court of authority to grant summary
judgment” (citing Torres v. First State Bank of Sierra
Cty., 550 F.2d 1255, 1257 (10th Cir. 1977)); but see
Alexander, 382 F.3d 1206 (district court, in dismissing
civil rights action for failure to state a claim, relied
substantially on materials outside the complaint, and
therefore plaintiffs’ accrual claim would be reviewed on
appeal under a summary judgment standard; plaintiffs
were on notice of the possibility of conversion of the
motion to dismiss to a motion for summary judgment,
inasmuch as city filed its motion to dismiss in the
alternative as one for summary judgment, and
plaintiffs provided their own affidavit to the court, in
which they addressed the summary judgment
standard).
Other circuits do not require notice or even
confirmation in the record that the non-movant was
aware that summary judgment was occurring, taking
a “more pragmatic,” “less formalistic” approach and
treating any error in failing to give notice as harmless.
Despite what the First Circuit has recognized in other
cases, the First Circuit has said, “[i]n some
circumstances we have … ‘treat[ed] any error in failing
to give express notice as harmless when the opponent
has received the affidavit and materials, has had an
opportunity to respond to them, and has not
controverted their accuracy.’” See Bos. Celtics Ltd.
P’ship v. Shaw, 908 F.2d 1041, 1050 (1st Cir. 1990)
(noting where no potential disputed material issue of
fact exists, summary judgment will not be disturbed

14
“even though the district court disregarded the
procedure which should have been followed”’).
The Eighth Circuit appears to follow this approach,
see, e.g., Kaestel v. Lockhart, 746 F.2d 1323 (8th Cir.
1984), Hirrill, 629 F.2d 490 (where it appeared from
consideration of record as a whole that plaintiff’s case
lacked merit, court of appeals would treat case as
though defendants, who had moved for dismissal for
failure to state claim upon which relief could be
granted, had filed motion for summary judgment, and
standards of rule 56 of these rules would be applied).
The Seventh Circuit follows a similar approach.
See, e.g., Lazzara v. Howard A. Esser, Inc., 802 F.2d
260, 272 (7th Cir. 1986) (“Although Esser may not have
received proper notice that the district court was
treating the motion to dismiss as a motion for summary
judgment, any error was harmless on the facts of this
case”); Milwaukee Typographical Union No. 23 v.
Newspapers, Inc., 639 F.2d 386, 391 (7th Cir.), cert.
denied, 454 U.S. 838, 102 S. Ct. 144, 70 L.Ed.2d 119
(1981).
The Fourth Circuit has followed this approach, too,
see, e.g., Johnson v. Pennsylvania Wire & Rope Co.,
867 F.2d 608 (4th Cir. 1989) (“We acknowledge that
Fed. R. Civ. P. 56 requires a motion by one, or both, of
the parties, prior notice of the motion hearing, and the
hearing, itself. However, this Court has approved sua
sponte orders of summary judgment where the
purposes of Rule 56—notice and an opportunity to be
heard—are achieved”).
The Fourth Circuit has
recognized, however, “that some of the circuits take a
different view” (citing Clark v. Tarrant Cty., Texas, 798

15
F.2d 736 (5th Cir. 1986); Griffith, 772 F.2d 822; Brobst
v. Columbus Servs. Int’l, 761 F.2d 148 (3d Cir. 1985)),
“but we think a better view is that a district court can,
in rare cases, act on its motion in this regard.”
The Sixth Circuit follows this same rationale.
Hoopes v. Equifax, Inc., 611 F.2d 134, 136 (6th Cir.
1979).
The Second Circuit’s more recent decision in Sahu
v. Union Carbide Corp., 548 F.3d 59, 67-70 (2d Cir.
2008), illustrates the clarity needed about Rule 12(d)’s
notice requirement. In Sahu, the district court did not
notify the parties before converting the Rule 12(b)(6)
motion into a motion for summary judgment, reasoning
as several of the circuits have that the plaintiffs were
“on notice of a possible conversion” because the parties
“submitted matters outside the pleadings” and the
plaintiffs entitled their opposition to the defendants’
motion to dismiss “Memorandum of Law in Opposition
to Motion to Dismiss and/or for Summary Judgment....”
Sahu v. Union Carbide Corp., 418 F. Supp. 2d 407, 411
(S.D.N.Y. 2005). The Court of Appeals “disagree[d]
with the district court’s conclusion that the plaintiffs
received sufficient notice” under Rule 12(d) but only
after a difficult analysis trying to distinguish between
when a motion to dismiss has been properly converted
to a motion for summary judgment, and when it has
not, concluding that the plaintiff’s “extrinsic evidence”
submitted to the district court was “not meant to
counter a possible future motion for summary
judgment brought by the defendants under Rule 56:”
While the defendants’ submissions—including
the defendants’ memorandum of law in support

16
of their motion to dismiss, which discussed much
of this evidence at length—gave the plaintiffs
notice that the defendants wanted the motion
changed to one for summary judgment, and gave
the district court the opportunity to consider the
extrinsic evidence they submitted before ruling,
the plaintiffs could not have known whether the
court would in fact consider them, or would
convert the motion into one for summary
judgment in order to do so….
We think that the title of the defendants’
memorandum in support of its motion as a
motion to dismiss or for summary judgment
similarly failed to provide the plaintiffs with
adequate notice. A motion called a motion for
summary judgment, whether or not stated as
alternatively for dismissal, ordinarily will place
a plaintiff on notice that the district court is
being asked to look beyond the pleadings to the
evidence in order to decide the motion. In this
case, however, where the plaintiffs had filed a
multi-count complaint and the supporting
memoranda and evidence can fairly be read to
seek only dismissal under Rule 12(b)(6) on some
counts and summary judgment on others, the
motion papers provided insufficient notice. The
plaintiffs should have been made aware that all
counts could or would be decided under the
summary judgment standard in order to give
them the opportunity to oppose the motion with
evidence and a focused argument.

17
The Second Circuit’s decision in Sahu shows that
the analyses conducted in the lower courts produces
inconsistent applications of Rule 12(d)’s fundamental
notice requirement. As the Second Circuit has
stressed, “care should, of course, be taken by the
district court to determine that the party against whom
summary judgment is rendered has had a full and fair
opportunity to meet the proposition that there is no
genuine issue of material fact to be tried, and that the
party for whom summary judgment is rendered is
entitled thereto as a matter of law.” First Fin. Ins. Co.
v. Allstate Interior Demolition Corp., 193 F.3d 109, 115
(2d Cir. 1999). The plaintiff must be “aware that they
were in danger of an adverse grant of summary
judgment based on the submissions prior to the district
court’s order converting the motion and then deciding
it.” This lack of notice harmed Mr. Boateng’s case–
where no discovery was conducted regarding the link
between plaintiff’s proposal and the solution that BP
employed to stop the oil leak – yet his lawsuit was
dismissed for failure of evidence. See, e.g., Klocke v.
Watson, 936 F.3d 240, 246 (5th Cir. 2019), as revised
(Aug. 29, 2019) (“Summary judgment motions are
normally resolved after the discovery process has
concluded or sufficiently progressed”). The Court
should grant this Petition to reconcile the inconsistent
applications of Rule 12(d)’s “reasonable opportunity”
requirements in the lower courts. The Court should
clarify that a district court must provide notice to the
parties that it is considering a Rule 12(b)(6) motion to
have been converted to a summary judgment motion.
The record must confirm that the non-movant, in
particular, was aware that the district court was
assessing not just the sufficiency of his pleading but

18
the sufficiency of the evidence supporting his claims,
and that this was the non-movant’s burden to
demonstrate in order to avoid dismissal of his lawsuit.
CONCLUSION
The Court should grant this Petition for a Writ of
Certiorari and, we respectfully submit, reverse and
remand back to the district court for reinstatement of
plaintiff’s Complaint and discovery on his claims.
Respectfully submitted,
MICHAEL CONFUSIONE
Counsel of Record
HEGGE & CONFUSIONE, LLC
P.O. Box 366
Mullica Hill, NJ 08062-0366
(800) 790-1550
mc@heggelaw.com
Counsel for Petitioner
Dated: October 30, 2019

